Order

Michigan Supreme Court
Lansing, Michigan

October 27, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,

160965(23)

Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

TOD HOUTHOOFD,
Petitioner-Appellant,
v

SC: 160965
COA: 351654

OAKS CORRECTIONAL FACILITY WARDEN,
Respondent-Appellee.

On order of the Court, the motion for reconsideration of this Court’s July 28, 2020
order is considered, and it is DENIED, because we are not persuaded that reconsideration
of our previous order is warranted. MCR 7.311 (G).

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 27, 2020
b 1019

Clerk

Justices

Order

Michigan Supreme Court
Lansing, Michigan

July 28, 2020

Bridget M. McCormack,
ChiefJustice
David F. Viviano,
ChiefJustice Pro Tem

160965

Stephen J. Markman
Brian K. Zaira
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

TOD HOUTHOOFD,
Petitioner-Appellant,
v

SC: 160965
COA: 351654

OAKS CORRECTIONAL FACILITY WARDEN,
Respondent-Appellee.

On order of the Court, the application for leave to appeal the January 17, 2020
order of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

!

I> Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
July 28,2020
S0720

Clerk

Appi C

• -•

Court of Appeals, State of Michigan
ORDER
Tod Houthoofd v Oaks Correctional Facility Warden

Michael!. Kelly
Presiding Judge

DocketNo.

351654

Michael F. Gadola

LC No.

19-016841-AH

Brock A. Swartzle
Judges

The Court orders that the complaint for habeas corpus is DENIED.

Presiding Judge

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk, on

JAN 1 7 2020
Date

Am>* b.
i'-;.

STATE OF MICHIGAN
IN THE 19TH CIRCUIT COURT FOR THE COUNTY OF MANISTEE
TOD HOUTHOOFD, #596112,

true copy

Petitioner,

JILL M. NOWAK
Manistee County Clerk

File No. 19-16841-AH
-vHonorable David A. Thompson
LES PARISH, Warden,
Oaks Correctional Facility,
Respondent.
Tod Houthoofd, #596112
Oaks Correctional Facility
1500 Caberfae Hwy
Manistee, MI 49660

-y
Les Parish, Warden
_
Oaks Correctional Facili^
1500 Caberfae Hwy
Manistee, MI 49660 f-m

s
^
f=>
—<

:so

ro

^ Cl

ORDER TO SHOW CAUSE WHY A WRIT
OF HABEAS CORPUS SHOULD
NOT ENTER
--------------------------

>-<
r—

m

_

>33

mm
oo

TSC

=<

T) rnH
oQ
cn

Petitioner, Tod Houthoofd, #596112, is a prisoner in the custody of tfte Michigan
Department of Corrections and is confined at the Oaks Correctional Facility in Manistee
County, Michigan. Petitioner brings the instant writ of habeas corpus asserting that he is
being unlawfully restrained of his freedom.
On October 1,2019, this Court received Respondent’s response containing a copy
of Petitioner’s Judgment of Sentence entered on July 11,2019. Respondent argues that
Petitioner is attempting to use an action for habeas corpus as a substitute for an appeal of
a criminal conviction, contrary to MCL 600.4310. Respondent points out that for a writ
of habeas corpus to enter, there would have to be a jurisdictional defect so radical as to
render the criminal proceedings absolutely void. In re Stone, 295 Mich. 207; 294 NW2d
156 (1940). Petitioner argues that venue was improper where he was convicted in

19-16841-AH

f\ pp-A

Saginaw County and that lack ofvenue is a radical defect: ofjurisdiction sufficient'to
warrant habeas corpus relief.
This Court is satisfied that Petitioner is being held by the Michigan Department of
Corrections pursuant to a facially valid Judgment of Sentence. Petitioner’s argument
regarding venue has already been resolved by the Michigan Supreme Court in People v
Houthoofd, 487 Mich 568; 790 NW2d 315 (2010), where the Court found that, although
venue was improper in Saginaw County, “because a venue error is not a constitutional
structural error, this matter is subject to a harmless error analysis under MCL 769.26. In
this case, defendant was not deprived of his due process right to a fair trial before an
impartial jury and there has been no miscarriage ofjustice.” Id. at 593. Further, this Court
notes MCL 600.1645 provides that “[n]o order, judgment, or decree shall be void or
voidable solely on the ground that there was improper venue.”
NOW THEREFORE;
IT IS ORDERED that Petitioner’s application for a writ of habeas corpus be
DENIED.
IT IS FURTHER ORDERED pursuant to MCR 2.602(A)(3), that this Order
resolves the last pending claim and closes the case.

Pfl )J

Date/

Tta
mm @ tm

son
Hon. David A. Th
Chief Judge, 19tMbircuit

S*8O0F e? SStVICg
M (8 tonpbn IM
flatew 0 mpsasnpffi

19-16841-AH

2

STATE OF MICHIGAN
IN THE 19TH CIRCUIT COURT FOR THE COUNTY OF MANISTEE
TOD HOUTHOOFD, #596112,
Petitioner,
File No. 19-16841-AH
-v-

Honorable David A. Thompson
LES PARISH, Warden,
Oaks Correctional Facility,
Respondent.
T.odHouthoofd, #596112Oaks Correctional Facility
1500 Caberfae Hwy
Manistee, MI 49660

Les Parish, Warden
Oaks Correctional Facility
1500 Caberfae Hwy
Manistee, MI 49660

ORDER DENYING MOTION FOR RECONSIDERATION
Petitioner, Tod Houthoofd, #596112, is a prisoner in the custody of the Michigan
Department of Corrections and is confined at the Oaks Correctional Facility in Manistee
County, Michigan. On October 25, 2019, Petitioner filed a motion for reconsideration
with objections to the accuracy and completeness of the judgment on denial for habeas
corpus. Motions for reconsideration are governed by MCR 2.119(F)(3), which states:
Generally, and without restricting the discretion of the court, a motion for
rehearing or reconsideration which merely presents the same issues ruled
on by the court, either expressly or by reasonable implication, will not be
granted. The moving party must demonstrate a palpable error by which the
court and the parties have been misled and show that a different
disposition of the motion must result from correction of the error.

19-16841-AH

1

Ap^ArX

Petitioner cites to Pyle v Kansas, 317 US 213, 216; 63 S Ct 177; 87 L Ed 214
(1942). Petitioner explains that in this case, “[t]he United States Supreme Court reversed
a conviction when the State knowingly used perjury and suppressed a favorable witness
to get a conviction.” While Petitioner’s reading of Pyle is reasonably accurate, the facts
are distinguishable from Petitioner’s case in significant ways. First, in the case at bar,
there is no evidence that the prosecution knowingly used perjury. Second, there is no
evidence or allegations that the prosecution suppressed any witnesses: Therefore,
Petitioner is left with a claim that venue was not proper, which - as the Court noted in its
opinion denying Petitioner’s writ of habeas corpus - is not grounds for the relief he is
seeking. This is because MCL 600.1645 provides that “[n]o order, judgment, or decree
shall be void or voidable solely on the ground that there was improper venue.”
The Court finds that Petitioner has failed to demonstrate a palpable error by which
the Court and the parties have been misled and that Petitioner has merely presented the
same issues already ruled on by the Court.
NOW THEREFORE;
IT IS ORDERED that Petitioner’s motion for reconsideration be DENIED.
IT IS FURTHER ORDERED pursuant to MCR 2.602(A)(3), that this Order
resolves the last pending claim and closes the case.

LI

Hon. David A. Thomuso n
Chief Judge, 19 th Circuit
___ , .

Bf

PROOF OF SERVICE

W U.S. RreJ Class Mai
D Hand DeSverad .
□ DepLmaKxx

□ Fa

□ Era!

f/p. BSSAU

19-16841-AH

2

